APPENDIX

APPENDIX
Decision of the United States Court of Appeals for the Eleventh Circuit,
United States v. Findley, No. 18-14204
(11th Cir. May 22, 2020) ............................................................................................ A-1
Order Denying Rehearing,
United States v. Findley, No. 18-14204
(11th Cir. July 28, 2020). ........................................................................................... A-2
United States v. Bobal, 981 F.3d 971 (11th Cir. 2020) ............................................ A-3

A-1

USCA11 Case: 18-14204

Date Filed: 05/22/2020

Page: 1 of 2

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-14204
________________________
D.C. Docket No. 9:17-cr-80226-RLR-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
TOMMY R. FINDLEY,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(May 22, 2020)
Before WILSON, MARCUS, and BUSH, ∗ Circuit Judges,
PER CURIAM:

∗

Honorable John Kenneth Bush, United States Circuit Judge for the Sixth Circuit, sitting by
designation.

USCA11 Case: 18-14204

Date Filed: 05/22/2020

Page: 2 of 2

Tommy R. Findley appeals his convictions and sentences for production of
child pornography, in violation of 18 U.S.C. § 2251(a) and (e), and possession of
child pornography, in violation of 18 U.S.C. § 2252(a)(4)(B) and (b)(2). On
appeal, Findley argues that the district court (1) failed to clearly indicate that it
conducted a de novo review of the suppression-hearing evidence before denying
his motion to suppress; (2) improperly denied his motion to suppress;
(3) constructively amended both counts of the indictment; (4) imposed an
unreasonable sentence; and (5) erred by restricting his use of a computer with a
modem as a condition of supervised release.
After considering the parties’ briefs, the record on appeal, and with the
benefit of oral argument, we find no reversible error. Accordingly, we affirm
Findley’s convictions and sentences.
AFFIRMED.

2

A-2

USCA11 Case: 18-14204

Date Filed: 07/28/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 18-14204-HH
______________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
TOMMY R. FINDLEY,
Defendant - Appellant.
__________________________________________
Appeal from the United States District Court
for the Southern District of Florida
__________________________________________
BEFORE: WILSON, MARCUS, and BUSH,* Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Tommy R. Findley is DENIED.

∗ Honorable John Kenneth Bush, United States Circuit Judge for the Sixth Circuit, sitting by
designation.
ORD-41

A-3

United States v. Bobal, 981 F.3d 971 (2020)
110k1030(1) In general

The Court of Appeals reviews unpreserved
issues for plain error.

981 F.3d 971
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Peter Robert BOBAL, Defendant-Appellant.

[2]

Synopsis
Background: Following defendant's convictions for
attempting to persuade a minor to engage in sexual activity
and committing a felony involving a minor while required
to register as a sex offender, he filed motion for new trial.
The United States District Court for the Southern District of
Florida, No. 0:18-CR-60072-BB-1, Beth Bloom, J., 2018 WL
4323786, denied the motion. Defendant appealed.

The Court of Appeals may reverse a conviction
under the plain error standard of review only
if the error is plain, it affects substantial rights,
and it seriously affects the fairness, integrity, or
public reputation of the judicial proceeding.

[3]
Holdings: The Court of Appeals, William H. Pryor, Chief
Judge, held that:

[2] imposition of special condition of supervised release
restricting defendant's computer use did not amount to plain
error.

Criminal Law
General

Necessity of Objections in

110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in
Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in General

Necessity of Objections in

An error cannot be “plain,” under the plain error
standard of review, if neither the United States
Supreme Court nor the Court of Appeals has ever
resolved the issue, and other circuits are split on
it.

Affirmed.

[1]

Criminal Law
General

110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in
Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in General
110k1030(1) In general

[1] defendant was not entitled to a new trial based on
prosecutor's statements during closing argument, and

West Headnotes (15)

Necessity of Objections in

110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in
Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in General
110k1030(1) In general

No. 19-10678
|
(November 30, 2020)

Procedural Posture(s): Appellate Review; Post-Conviction
Review.

Criminal Law
General

[4]

Criminal Law

In argument in general

Criminal Law

Summing up

110 Criminal Law
110XXI Motions for New Trial
110k919 Misconduct of Counsel for Prosecution
110k919(3) In argument in general
110 Criminal Law
110XXXI Counsel
110XXXI(F) Arguments and Statements by
Counsel
110k2191 Action of Court in Response to
Comments or Conduct
110k2195 Summing up

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Bobal, 981 F.3d 971 (2020)

Defendant convicted of committing a felony
involving a minor while required to register
as a sex offender was not entitled to a new
trial based on prosecutor's statements during
closing argument, that defendant stipulated to
the offense, instead of just one element of
the offense, and that the “only verdict” was
a verdict of guilty; when viewed in context,
statements were proper and based on the
evidence presented, and even if prosecutor's
statements were improper, any error was cured
by trial court's jury instruction that the lawyers'
statements were not evidence.

[5]

Criminal Law

[7]

To warrant a new trial because of the prosecutor's
statements during closing arguments, there must
be a reasonable probability that but for the
prosecutor's improper remarks, the outcome
would be different.

[8]

Arguments and conduct of

Criminal Law
Statements as to Facts,
Comments, and Arguments
110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)2 Matters or Evidence Considered
110k1134.16 Arguments and conduct of counsel
110 Criminal Law
110XXIV Review
110XXIV(Q) Harmless and Reversible Error
110k1171 Arguments and Conduct of Counsel
110k1171.1 In General
110k1171.1(2) Statements as to Facts, Comments,
and Arguments
110k1171.1(2.1) In general

An appellate court assesses the prejudicial effect
of a prosecutor's closing arguments by evaluating
them in the context of the trial as a whole and
assessing their probable impact on the jury.

Criminal Law
Arguments

Statements as to Facts and

110 Criminal Law
110XXXI Counsel
110XXXI(F) Arguments and Statements by
Counsel
110k2076 Statements as to Facts and Arguments
110k2077 In general

For prosecution

Prosecutors are permitted to make colorful
and perhaps flamboyant remarks during closing
arguments if they relate to the evidence adduced
at trial.

A prosecutor's closing argument will constitute
misconduct only if it was improper and
prejudiced the substantial rights of the defendant.

Criminal Law
counsel

In argument in general

110 Criminal Law
110XXI Motions for New Trial
110k919 Misconduct of Counsel for Prosecution
110k919(3) In argument in general

110 Criminal Law
110XXXI Counsel
110XXXI(F) Arguments and Statements by
Counsel
110k2071 Scope of and Effect of Summing up
110k2073 For prosecution

[6]

Criminal Law

[9]

Criminal Law
Jury

Instructions as to Duties of

Criminal Law
Comments to jurors as to
duties and obligations
110 Criminal Law
110XX Trial
110XX(F) Province of Court and Jury in General
110k754 Instructions Invading Province of Jury
110k768 Instructions as to Duties of Jury
110k768(1) In general
110 Criminal Law
110XXXI Counsel
110XXXI(F) Arguments and Statements by
Counsel
110k2157 Comments to jurors as to duties and
obligations

While a jury may render a verdict at odds with the
evidence or the law, neither the court nor counsel
should encourage jurors to violate their oath.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Bobal, 981 F.3d 971 (2020)

[10]

Criminal Law
evidence

110XXIV(E) Presentation and Reservation in
Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1042.3 Sentencing and Punishment
110k1042.3(4) Probation and related dispositions
350H Sentencing and Punishment
350HIX Probation and Related Dispositions
350HIX(G) Conditions of Probation
350Hk1964 Particular Terms and Conditions
350Hk1983 Other Particular Conditions
350Hk1983(1) In general

Matters not sustained by

110 Criminal Law
110XXXI Counsel
110XXXI(F) Arguments and Statements by
Counsel
110k2191 Action of Court in Response to
Comments or Conduct
110k2199 Matters not sustained by evidence

Statements and arguments of counsel are not
evidence, and any improper statements can be
rectified by the district court's instruction to
the jury that only the evidence in the case be
considered.

[11]

Criminal Law
dispositions

Probation and related

A district court does not commit plain error
by imposing a computer restriction as a special
condition of supervised release for a convicted
sex offender, even if the term of supervised
release is for life.

[13]

110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in
Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1042.3 Sentencing and Punishment
110k1042.3(4) Probation and related dispositions

Imposition of special condition of supervised
release prohibiting defendant convicted of
attempting to persuade a minor to engage
in sexual activity and committing a felony
involving a minor while required to register
as a sex offender from using a computer
except for work and with the prior permission
of the district court did not amount to plain
error; although defendant's term of supervised
release was for life, condition was reasonably
related to legitimate need to protect the public
from potential abuses of the internet, and no
United States Supreme Court decision or binding
decision of Court of Appeals invalidated such a
condition on facts similar to defendant's case.

[12]

Criminal Law
dispositions

Probation and related

Sentencing and Punishment
Particular Conditions
110 Criminal Law
110XXIV Review

Other

Sentencing and Punishment
Particular Conditions

Other

350H Sentencing and Punishment
350HIX Probation and Related Dispositions
350HIX(G) Conditions of Probation
350Hk1964 Particular Terms and Conditions
350Hk1983 Other Particular Conditions
350Hk1983(1) In general

Restrictions on the use of a computer during
a sex offender's term of supervised release
are reasonably related to legitimate sentencing
considerations, namely the need to protect both
the public and the sex offender from potential
abuses of the internet.

[14]

Sentencing and
Punishment
Construction, operation, and
compliance
350H Sentencing and Punishment
350HIX Probation and Related Dispositions
350HIX(G) Conditions of Probation
350Hk1964 Particular Terms and Conditions
350Hk1983 Other Particular Conditions
350Hk1983(3) Construction, operation, and
compliance

Restrictions on a sex offender's use of a computer
during the offender's term of supervised release
are not overly broad when the offender can still
use the Internet for valid purposes by obtaining
his probation officer's prior permission.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Bobal, 981 F.3d 971 (2020)

[15]

Sentencing and Punishment
Validity or
reasonableness of conditions in general
350H Sentencing and Punishment
350HIX Probation and Related Dispositions
350HIX(G) Conditions of Probation
350Hk1963 Validity or reasonableness of
conditions in general

A district court may impose reasonable
conditions that deprive a defendant of some
freedoms enjoyed by law-abiding citizens during
a term of supervised release.

Attorneys and Law Firms
*973 Jonathan E. Kobrinski, Daniel Matzkin, Emily M.
Smachetti, Jason Wu, Assistant U.S. Attorney, U.S. Attorney
Service-SFL, MIAMI, FL, for Plaintiff-Appellee.
Lori E. Barrist, Federal Public Defender's Office, West Palm
Beach, FL, Michael Caruso, Federal Public Defender, Daryl
Elliott Wilcox, Federal Public Defender's Office, Lauderdale,
FL, Sara Wilson Kane, Federal Public Defender's Office,
Miami, FL, for Defendant-Appellant.
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 0:18-CR-60072-BB-1
Before WILLIAM PRYOR, Chief Judge, HULL and
MARCUS, Circuit Judges.
Opinion
WILLIAM PRYOR, Chief Judge:
This appeal requires us to decide whether a district court
plainly erred by denying a criminal defendant's motion for a
new trial and by imposing a restriction on using a computer
as a special condition of a lifetime term of supervised release.
After a bifurcated trial, a jury convicted Peter Bobal of
attempting to persuade a minor to engage in sexual activity
and committing a felony involving a minor while required to
register as a sex offender. Bobal's sentence included a lifetime
term of supervised release, during which he could not use
a computer except for work and with the permission of the
district court. Bobal argues that the prosecutor misled the
jury in her closing argument and that his computer restriction
is unconstitutional in the light of

Packingham v. North

Carolina, ––– U.S. ––––, 137 S. Ct. 1730, 198 L.Ed.2d 273
(2017). We conclude that the prosecutor's closing argument
was not improper. We also conclude that
Packingham is
distinguishable because Bobal's computer restriction does not
extend beyond his term of supervised release, it is tailored to
his offense, and he can obtain the district court's approval to
use a computer for permissible reasons. We affirm.

I. BACKGROUND
In October 2017, a 62-year-old woman living with her 18year-old daughter in Hallandale Beach, Florida, found a note
on her door. The note said something like “I think you're
beautiful,” although it was unclear whether the note was
addressed to the woman or her daughter. It included a phone
number but no name. The woman suspected that her neighbor,
Peter Bobal, had left it. She asked her friend, a 60-year-old
man, to call the number. He did, and he reached Bobal's
voicemail. The friend hung up without leaving a message, but
a *974 short time later he began receiving text messages
from Bobal. Bobal wrote that he was a single male, and he
asked the caller to text him back. The friend did not respond.
After continuing to ignore Bobal for a couple months, the
friend decided to reply and to pose as a 14-year-old girl to
see how Bobal would react. Bobal responded by asking if the
girl's mother was single, and he said that he could talk with
either the girl or her mother about anything. He continued
texting the fictitious girl, and he eventually asked her to send
him a picture. The man posing as the girl offered the excuse
that he was at school, but he asked Bobal for a picture. Bobal
responded by asking if he should send one of his face or of
him naked. The man never answered, so Bobal sent a picture
of his face. But after the man commented that Bobal had sent
a picture of his face “instead of the other,” Bobal sent the
fictitious girl a picture of his penis. The man posing as the girl
then contacted the Federal Bureau of Investigation and turned
over copies of his text messages with Bobal.
A special agent of the Bureau assumed the identity of
the fictitious 14-year-old girl. He exchanged numerous text
messages with Bobal, many of which were sexual in nature.
Eventually, Bobal and the special agent arranged to meet.
When Bobal arrived at the agreed-upon meeting place, the
special agent arrested him.
A federal grand jury indicted Bobal on two counts: using
a facility and means of interstate commerce to knowingly

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Bobal, 981 F.3d 971 (2020)

attempt to persuade, induce, entice, and coerce a minor
to engage in sexual activity, 18 U.S.C. § 2422(b), and
committing a felony offense involving a minor after being
required to register as a sex offender, id. § 2260A. Bobal had
previously been convicted in Florida for using a computer
to solicit a child to engage in sexual activity. At trial, Bobal
stipulated to the second element of the second count: at the
time of the alleged criminal misconduct, he was a registered
sex offender.

may, with the prior approval of the Court, use a computer
in connection with authorized employment.” Bobal did not
object to these special conditions.

The district court held a two-day, bifurcated jury trial. It did
not inform the jury about the charge under section 2260A
until after the jury convicted Bobal of the charge under
section 2422(b). In the trial for the latter charge, neither the
government nor Bobal called any witnesses or offered any
evidence other than Bobal's stipulation.

2009);
United States v. Pendergraft, 297 F.3d 1198, 1211
(11th Cir. 2002). We may reverse only if the error is plain, it
affects substantial rights, and it “seriously affects the fairness,
integrity, or public reputation of the judicial proceeding.”

The prosecutor gave a short closing argument in which
she explained the two elements of section 2260A: first, the
defendant committed a felony offense involving a minor,
and second, the defendant was required to register as a sex
offender at the time of the offense. She explained that Bobal's
stipulation about being a registered sex offender satisfied the
second element: “So the Defense is telling you: ‘We stipulate
that the Government proves Count 2. I was a registered sex
offender. I was required to register as a sex offender.’ ” And
the prosecutor then asserted that the guilty verdict for section
2422(b) satisfied the first element of section 2260A. She
concluded, “So the only verdict as to Count 2 is a verdict of
guilty.”
Bobal did not object to the prosecutor's statements, and he
waived his own closing argument. The jury then convicted
him of violating section 2260A.
Later that day, after the trial ended, Bobal moved the district
court for a new trial on the second count. He argued that the
prosecutor had misstated the law when she said that “the only
verdict as to Count 2 is a verdict of guilty” because the jury
was free to reevaluate the evidence as to the first count. The
district court denied the motion.
*975 The district court sentenced Bobal to 240 months
of imprisonment followed by a lifetime term of supervised
release. As a special condition of supervised release, it
ordered that Bobal “shall not possess or use a computer that
contains an internal, external or wireless modem without the
prior approval of the Court.” And it further ordered that
Bobal “shall not possess or use any computer; except that [he]

II. STANDARD OF REVIEW
[1]

[2]

[3] We review unpreserved issues for plain error.

United States v. Moran, 573 F.3d 1132, 1137 (11th Cir.

Pendergraft, 297 F.3d at 1211. An error cannot be “plain”
if “neither the Supreme Court nor this Court has ever resolved
[the] issue, and other circuits are split on it.” United States v.
Aguillard, 217 F.3d 1319, 1321 (11th Cir. 2000).

III. DISCUSSION
Bobal argues that the district court erred by denying his
motion for a new trial and asks that we reverse his
conviction for violating section 2260A. He also contends that
the computer restriction is unconstitutional in the light of
Packingham. Because Bobal did not contemporaneously
object either to the prosecutor's closing argument or to his
sentence, we review his arguments for plain error, and we
reject them both.

A. The District Court Correctly Denied
Bobal's Motion for a New Trial.
[4] Bobal argues that the district court should have granted
his motion for a new trial for the charge under section
2260A because the prosecutor made two misstatements
during her closing argument. First, the prosecutor said that
Bobal stipulated to the second count instead of just one
element of that count. Second, she told the jury that “the only
verdict as to Count 2 is a verdict of guilty” when the jury was
actually free to reevaluate the evidence for the first count and
to reach an inconsistent verdict.
[5]
[6]
[7] The prosecutor's closing argument will
constitute misconduct only if it was improper and prejudiced
the substantial rights of the defendant. United States v.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Bobal, 981 F.3d 971 (2020)

Taohim, 817 F.3d 1215, 1224 (11th Cir. 2013). We assess
the prejudicial effect of arguments by “evaluat[ing] them
in the context of the trial as a whole and assess[ing] their
probable impact on the jury. To warrant a new trial, there
must be a reasonable probability that but for the remarks, the
outcome would be different.” Id. (internal quotation marks
and citation omitted). We conclude that the district court did
not err in denying Bobal's motion for a new trial because
the prosecutor's statements were not improper and did not
prejudicially affect Bobal's substantial rights.
In explaining Bobal's stipulation to the jury, the prosecutor,
paraphrasing Bobal, said, “We stipulate that the Government
proves Count 2,” and on appeal, the government concedes
that this statement was an “isolated slip of the tongue.” But,
during the trial, the prosecutor immediately followed that
“slip” with, “I was a registered sex offender. I was required to
register as a sex offender.” From the full context of the quote,
a reasonable juror would have understood the prosecutor to
contend *976 that Bobal had stipulated to only one element
of section 2260A—that he was required to register as a sex
offender at the time of the offense—not the entire count.
[8] [9] The prosecutor's statement that “the only verdict as
to Count 2 is a verdict of guilty” was clearly an argument
meant to persuade the jury, not an instruction as to how it
must vote. We allow lawyers to make “colorful and perhaps
flamboyant remarks if they relate to the evidence adduced
at trial,”
United States v. Bailey, 123 F.3d 1381, 1400
(11th Cir. 1997) (internal quotation marks omitted), and the
prosecutor's remarks conveyed nothing more than elementary
logic. Bobal's stipulation that he was a registered sex offender
satisfied one of the two elements of section 2260A. His
conviction for violating section 2422(b)—delivered earlier
that day by the exact same jury—satisfied the other. Because
Bobal satisfied both elements, he was necessarily guilty of
violating section 2260A. To be sure, the jury could have
rendered an inconsistent verdict. But “[w]hile we recognize
that a jury may render a verdict at odds with the evidence or
the law, neither the court nor counsel should encourage jurors
to violate their oath.”
United States v. Trujillo, 714 F.2d
102, 106 (11th Cir. 1983).
[10] Neither of the prosecutor's statements was improper.
But even if they were improper, “statements and arguments
of counsel are not evidence, [and] improper statements can
be rectified by the district court's instruction to the jury that
only the evidence in the case be considered.” United States v.

Smith, 918 F.2d 1551, 1562 (11th Cir. 1990). Here, the district
court twice instructed the jury that the lawyers’ statements
were not evidence. So even if there were something wrong
with the prosecutor's closing argument, the district court cured
the problem, and the prosecutor's statements do not warrant a
new trial. We affirm Bobal's conviction for violating section
2260A.

B. A Restriction on Computer Usage as a Special
Condition of a Lifetime Term of Supervised
Release Is Not Plainly Unconstitutional.
[11] Bobal next challenges the special condition of his
supervised release that prohibits him from using a computer
except for work and with the prior permission of the district
court. He contends that this restriction is unconstitutional. But
our precedents foreclose his argument.
[12] [13] [14] A district court does not commit plain error
by imposing a computer restriction as a special condition
of supervised release, even if the term of supervised release
is life. We held in
United States v. Zinn that a limited
restriction on a sex offender's ability to use the internet while
on a three-year period of supervised release was “a necessary
and reasonable condition of supervised release” that did not
burden the offender's rights under the First Amendment.
321 F.3d 1084, 1086, 1093 (11th Cir. 2003). Such
restrictions are reasonably related to legitimate sentencing
considerations, namely “the need to protect both the public
and sex offenders themselves from ... potential abuses” of
the internet.
Id. at 1093. And computer restrictions are
not overly broad when a sex offender on supervised release
can “still use the Internet for valid purposes by obtaining his
probation officer's prior permission.”
Id. Later, in United
States v. Carpenter, we held that a district court did not plainly
err by imposing a computer restriction as a special condition
of supervised release for a period of life. 803 F.3d 1224, 1239–
40 (11th Cir. 2015).
Bobal contends that Carpenter does not help us to resolve this
appeal, but we disagree. To be sure, the issue we addressed
*977 in Carpenter was whether a computer restriction
as a special condition of a lifetime period of supervised
release was unreasonable, not whether it violated the First
Amendment. Id. at 1228. We also reached our conclusion in
Carpenter in part because, even if there was any error in the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Bobal, 981 F.3d 971 (2020)

length of the restriction, Carpenter invited it by asking the
district court to sentence him to a lifetime period of supervised
release. Id. at 1239. But we also stated that because “no case
of the Supreme Court or this Court says that a condition like
this one cannot be imposed ... there can be no plain error.” Id.
Bobal argues that the Supreme Court abrogated our
precedents in Packingham v. North Carolina, when it held
that a North Carolina law prohibiting registered sex offenders
from accessing social networking websites that permitted
children to be present violated the First Amendment,
S. Ct. at 1733, 1738, but

137

Packingham is distinguishable for

at least three reasons. First, the state law in
Packingham
restricted sex offenders even after they had completed their
sentences.
Id. at 1737. Bobal's computer restriction, by
contrast, is a special condition of his supervised release and
does not extend beyond his sentence. Second, the state law
in
Packingham applied to all registered sex offenders, not
only those who had used a computer or some other means of
electronic communication to commit their offenses.
137
S. Ct. at 1733. The Supreme Court explained that it was
not holding that the First Amendment bars the enactment of
“more specific laws than the one at issue.”
Id. at 1737.
Indeed, the Court “assumed that the First Amendment permits
a State to enact specific, narrowly tailored laws that prohibit
a sex offender from engaging in conduct that often presages
a sexual crime, like contacting a minor or using a website

opinion, where the Supreme Court said, “Of importance,
the troubling fact that the law imposes severe restrictions
on persons who already have served their sentence and are
no longer subject to the supervision of the criminal justice
system is also not an issue before the Court.” Packingham,
137 S. Ct. at 1737. Bobal understands this language to
mean that the holding of
Packingham applies to all
computer restrictions, regardless of whether the defendant is
on supervised release or has completed his sentence.
[15] We disagree. The sentence in question clarified that
the Supreme Court decided only whether the North Carolina
law violated the First Amendment, not whether the law was
unconstitutional for other reasons not raised in the appeal.
Nothing in
Packingham undermines the settled principle
that a district court may “impose reasonable conditions that
deprive the offender of some freedoms enjoyed by lawabiding citizens” during supervised release.
United States
v. Knights, 534 U.S. 112, 119, 122 S.Ct. 587, 151 L.Ed.2d
497 (2001). Several of our sister circuits have *978 likewise
decided that, even after
Packingham, a district court does
not commit plain error by imposing a restriction on computer
usage as a special condition of supervised release. See United
States v. Perrin, 926 F.3d 1044, 1049–50 (8th Cir. 2019);
United States v. Halverson, 897 F.3d 645, 658 (5th Cir.
2018);
2017).

United States v. Rock, 863 F.3d 827, 831 (D.C. Cir.

to gather information about a minor.”
Id. Bobal used an
electronic device to attempt to persuade a minor with whom
he had never communicated in person to have sex with
him. His computer restriction prevents him from engaging in
activity that could result in his repeating that offense. Third,

Bobal urges us to follow the Third Circuit, which reached

unlike the state law in
Packingham, Bobal's computer
restriction is not a “complete bar to the exercise of [his] First

Packingham, blanket internet restrictions will rarely be

Amendment rights.”
Id. at 1738. Instead, it allows Bobal
to obtain court permission to use a computer in connection
with employment. And Bobal can also ask the district court to
modify the terms of his supervised release for other reasons.
See
18 U.S.C. § 3583(e)(2); Fed. R. Crim. P. 32.1(c). The
computer restriction does not leave Bobal without recourse to
protect his First Amendment rights.

the opposite conclusion in

United States v. Holena under

an abuse-of-discretion standard.
906 F.3d 288, 290, 295
(3d Cir. 2018). The Third Circuit stated that, “[u]nder

tailored enough to pass constitutional muster.”

Id. at 295.

And it concluded that “even under Packingham’s narrower
concurrence,” a blanket computer restriction fails because it
“precludes access to a large number of websites that are most
unlikely to facilitate the commission of a sex crime against a
child.”

Id. (internal quotation marks omitted).

Bobal urges us to adopt a more sweeping interpretation of

Holena read the opinions in
Packingham too broadly.
Both the majority opinion and the concurring opinion in

Packingham. He cites a parenthetical sentence from the

Packingham agreed that the North Carolina law infringed

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Bobal, 981 F.3d 971 (2020)

the First Amendment rights of registered sex offenders, who
would be committing an entirely new felony if they accessed
certain websites. But neither opinion addressed whether
the First Amendment is violated by a special condition of
supervised release for a sex offender who is serving a sentence
for an offense involving electronic communications sent to a
minor.

IV. CONCLUSION
We AFFIRM Bobal's conviction and sentence.
All Citations
981 F.3d 971

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

